DOE/IG-0457



         AUDIT
        REPORT


                                      FOLLOW-UP AUDIT OF
                                 PROGRAM ADMINISTRATION BY THE
                                       OFFICE OF SCIENCE




                                              JANUARY 2000




PageU.S.
    15 DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                              January 24, 2000


MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Report on “Follow-up Audit of Program Administration by the Office of
                Science”

BACKGROUND

In August 1995, the Office of Inspector General issued a report on the Audit of Program Administration
by the Office of Energy Research. The audit concluded that Energy Research, now known as the Office of
Science, was not directing funds to specific projects, and that its field work proposals did not contain
milestones, metrics, or other performance criteria that could be used to evaluate research progress. We
recommended that management review the administrative process and consider (1) authorizing work based
on requests received, and (2) evaluating research progress based on metrics in work authorizations.

Management partially agreed with the finding and recommendations. However, it expressed concern that
unnecessary requirements on research performers could reduce desirable flexibility, stifle creativity, and lead
to inferior results.

The objective of this audit was to determine whether the Department instituted corrective action in response
to the recommendations in the 1995 report.

RESULTS OF AUDIT

The current review disclosed that the Department took corrective action in response to the recommendation
to authorize work based on requests received. In Fiscal Year (FY) 1999, work authorizations clearly
identified funding amounts and the particular projects that were funded. However, the Department did not
take appropriate action in response to our second recommendation which concerned the need to evaluate
project progress based on formal metrics in work authorizations. We found that, as was the case in 1995,
the Office of Science was not evaluating research projects using milestones or metrics. The Department’s
program managers contended that basic research did not lend itself to the identification of scheduled
activities or numerical measures. We believe that, without such measures, the Department was not in a
position to fully evaluate the performance and progress of certain research projects managed by the Office of
Science.
                                                       -2-

MANAGEMENT REACTION

Management did not concur with the finding and recommendations. It stated that research progress should
not be measured only against performance criteria and metrics at the individual task level; that it uses peer
reviews to ensure research programs are of high quality and meet Department objectives; and, that the use of
milestones and metrics would be a waste of the taxpayers’ money and would be potentially destructive to the
quality of the subject research.

We agree that there are a number of methodologies that should be used to measure research progress.
While we acknowledge that the development and execution of metrics to evaluate basic research projects is
a challenging task, the results of our audit support the view that they can play an important role in determining
research progress. This is especially true if the metrics are used in conjunction with other evaluative factors
such as peer reviews, annual reports, and research presentations. While the eventual outcome of basic
research is difficult to predict, taxpayer interests dictate that the Department make every reasonable effort to
assure that, “… the basic research programs that the nation funds generate the kinds of knowledge that have
given us great practical benefits in the past.” [Evaluating Federal Research Programs, the National
Academy of Sciences, 1999.] We believe the milestone and metrics described in this report can be useful
tools in achieving this goal.

Attachment

cc: Deputy Secretary
    Under Secretary
FOLLOW-UP AUDIT OF PROGRAM ADMINISTRATION BY THE
OFFICE OF SCIENCE


TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..................................................................1

                Conclusions and Observations.................................................. 2


                Milestones Were Not Used

                Details of Finding ...............................................................................3

                Recommendations and Comments ..................................................7


                Appendix

                Scope and Methodology.....................................................................9
OVERVIEW

INTRODUCTION AND   The Office of Science (SC), formerly known as the Office of Energy
OBJECTIVE          Research (ER), is responsible for approving and managing research projects
                   funded at the Department’s national laboratories. The laboratories submit
                   field proposals for research projects to the SC for funding consideration.
                   The proposals are evaluated and selected for funding by SC program
                   managers, with support from a peer review process. The program managers
                   approve the tasks and provide work authorizations and other funding
                   guidance to the laboratories after specific projects have been selected. In
                   FY 1999, SC provided $1.7 billion to the laboratories for research projects.

                   In August 1995, the Office of Inspector General (OIG) issued Report DOE/
                   IG-0376, Audit of Program Administration by the Office of Energy
                   Research. The audit was performed to determine whether the Department
                   had established performance expectations, including performance criteria and
                   metrics, and used these expectations to monitor progress for research
                   performed at national laboratories. The audit determined that the
                   Department had not directed funds to specific projects, and the proposals
                   that were funded did not contain performance criteria or metrics that could
                   be used to evaluate research progress. The absence of documented
                   performance criteria and metrics in the work authorizations made it
                   impossible to determine whether the laboratories’ performance met the
                   Department’s expectations. We recommended that ER review the
                   administrative process and give consideration to (1) authorizing work based
                   on requests received, and (2) evaluating research progress based on the
                   metrics in these authorizations.

                   In response to the audit recommendations, ER stated that it would convene a
                   process improvement team to (1) examine the format of field proposals to
                   see whether changes in requested information and aggregation levels would
                   improve their use as a research tool;
                   (2) consider modifications to research authorizations to better indicate the
                   Department’s expectations and performance criteria with respect to modified
                   field research proposals; and (3) develop a phased implementation plan to
                   incorporate the recommendations of the process improvement team into the
                   FY 1998 and FY 1999 budget cycles. However, management was
                   concerned that unnecessary requirements on its research performers could
                   reduce desirable flexibility, stifle creativity, and lead to inferior results.




Page 1                                                            Introduction and Objective
                  The objective of this audit was to determine whether the Department took
                  appropriate action in response to recommendations in Report DOE/IG-
                  0376.

CONCLUSIONS AND   The Department took appropriate corrective action in response to
OBSERVATIONS      Recommendation 1—to authorize work based on requests received.
                  However, it did not take appropriate action in response to Recommendation
                  2—to evaluate progress based on metrics in work authorizations.

                  In response to the prior audit, the Department improved its administrative
                  process for funding research projects. In FY 1999, work authorizations
                  clearly identified funding amounts and the particular projects that were funded.
                  In most cases, the work authorizations identified field work proposal
                  numbers, project names, or principle investigators’ names for the proposals
                  that received funding. These changes were consistent with the intent of
                  Recommendation 1 in the prior report.

                  Although improvements were made in the funding process, the Department
                  did not improve its process for evaluating contractors’ progress on research
                  projects. In FY 1999, the Department was still not evaluating research
                  projects using milestones or metrics. Of the 241
                  FY 1999 work authorizations reviewed, 84 percent did not include any
                  milestones or metrics to evaluate research progress. Milestones were not
                  used because the Department’s program managers did not believe that basic
                  research lent itself to the identification of scheduled activities or numerical
                  measures. As a result, the Department could not objectively measure
                  performance of research projects and make sound budgetary decisions based
                  on objective measures.

                  The audit identified issues that management should consider when preparing
                  its yearend assurance memorandum on internal controls.




                                                              (Signed)

                                                          Office of Inspector General




Page 2                                                       Conclusions and Observations
MILESTONES WERE NOT USED


Work Authorizations   The Department did not take appropriate action in response to the prior
Did Not Include       audit to evaluate progress based on metrics in work authorizations.
Milestones
                      To determine whether the Department's actions satisfied the intent of the
                      prior recommendations, we reviewed 241 field research proposals that
                      received initial funding in FY 1999 at the Argonne, Brookhaven, and Oak
                      Ridge National Laboratories for the scientific disciplines of Biological and
                      Environmental Research (BER), Basic Energy Science (BES), and High
                      Energy Physics (HEP). Of the 241 proposals reviewed, 19 included task-
                      oriented milestones; 20 included a single, annual report milestone; and 202
                      did not include any milestones or metrics that could be used to evaluate
                      research progress. Also, in the 39 instances where milestones were
                      included, there was no indication that the proposed milestones were
                      evaluated or approved by the SC program managers before the work was
                      authorized. The following table summarizes the results of our review:


                                                      Office of Science
                                                      Fiscal Year 1999
                                                Field Work Proposals Funded


                                                         Field Work Proposals   Type of Milestones
                                   Funding       Total    Without    With       Annual     Task
                       Science      ($000)     Proposals Milestone Milestone    Report    Oriented
                                                             s         s


                       BER          $ 49,705      95        70         25         10        15


                       BES          135,813      133       119         14         10         4


                       HEP           20,995       13        13          0          0         0
                                   $206,513      241       202         39         20        19




                      Many of the field work proposals contained no milestones, but identified
                      specific activities in other sections of the proposal that could have been
                      used to measure research progress in FY 1999. For example, a BER
                      project funded for $600,000 at Argonne National Laboratory contained no
                      milestones in the “milestone schedule” section of the proposal. However,


Page 3                                                                          Details of Finding
                         another section of the proposal stated, “In FY 1999, protein maps will be
                         completed and proteins from control and treated cells will be compared.”
                         This statement could have been used to establish a milestone and measure
                         results; however, no milestones were used.

                         Another BER proposal, funded for $200,000 at the Brookhaven National
                         Laboratory contained no milestones, but identified five activities scheduled
                         for completion in FY 1999. The activities included: “Clone, express and
                         analyze for solubility at least one
                         96-well tray of yeast proteins, with appropriate controls . . . Begin to
                         analyze insoluble proteins in detail, to look for better ways to increase
                         solubility . . . (and) Increase the pace of structure solving. .” It appears
                         that milestones could have been established for each of these activities;
                         however, no milestones were used.

                         Also, a BES proposal that was funded for $1.6 million at Oak Ridge
                         National Laboratory, contained a single milestone—to submit an annual
                         report. However, the narrative section of the proposal identified eight
                         activities scheduled for completion in FY 1999. The activities included:
                         “Design and test stage for in-situ hot-stage nanoindentation in the SEM . .
                         . Convert PEELS to energy-filtered imaging on 200 kV FEG-AEM . . .
                         (and) Perform first experiments on new generation of atom probe
                         position-sensitive detectors. . . .” Milestones could have been established
                         for each of these activities, but were not.

Corrective Actions and   The prior OIG report on ER program administration determined that the
Departmental Policy      proposals that were funded did not contain performance criteria or
Required the Use of      metrics that could be used to evaluate research progress. To correct
Milestones               these concerns, ER stated that it would convene a process improvement
                         team to (1) consider modifications to research authorizations to better
                         indicate the Department's expectations and performance criteria with
                         respect to modified field research proposals, and (2) develop a phased
                         implementation plan to incorporate the recommendations of the process
                         improvement team into the FY 1998 and FY 1999 budget cycles.

                         In addition to the Department's proposed corrective actions,
                         Departmental policy is to monitor contractor performance in terms of
                         work accomplishment. Departmental Order 412.1, Work Authorization
                         System, requires that work authorizations include, at a minimum, a
                         milestone for the submission of an annual progress report. The order


Page 4                                                                          Details of Finding
                           gives the program manager the prerogative to require the laboratory to
                           include additional tasks and their associated completion dates in the
                           milestone schedule section of the work authorization.

                           Milestones are also established as a performance measure in the
                           laboratories’ performance based management contracts, as required by
                           the Government Performance and Results Act of 1993. The contracts
                           are intended to measure the management and operating contractor’s
                           actual performance against a set of performance measures. Each
                           performance measure has subparts, or metrics, which are evaluated
                           separately to arrive at a collective result. All of the laboratories reviewed
                           had performance measures included in their contracts with the
                           Department. Furthermore, under performance based management
                           contracts, the laboratories receive incentive fees based in part upon the
                           performance measures included in their contracts.

Program Managers Did Not   Program managers were concerned that unnecessary requirements on its
Believe Milestones Were    research performers could reduce desirable flexibility, stifle creativity, and
Useful                     lead to inferior results. As a result, they did not believe that milestones
                           were useful to measure research progress, and did not encourage their
                           use in field proposals. The program managers stated that basic research,
                           because of its uncertain nature, does not lend itself to identification of
                           scheduled activities or numerical measures. Therefore, they prefer to
                           evaluate research progress based upon peer reviews. Also, the program
                           managers stated that milestones would not encourage contractors to be
                           innovative in their research efforts.

                           Unlike SC’s program managers, pharmaceutical companies engaged in
                           drug discovery research require the identification and application of
                           milestones to evaluate research progress and program manager
                           performance. Discussion with representatives from five pharmaceutical
                           companies determined that in all instances, the companies require
                           milestones for basic research projects devoted to drug discovery. The
                           representatives identified milestones as major tasks with assigned target
                           completion dates, developed annually, that are to be accomplished over
                           the funded term of the project. The drug companies’ representatives
                           stated that although the results of basic research are unpredictable, the
                           work that is to be accomplished can be documented in the form of
                           milestones. In fact, one drug company executive stated “It is unlikely that
                           any private company engaged in basic research would not require
                           milestones to evaluate performance.”

Page 5                                                                              Details of Finding
Department Could Not   In the absence of milestones for research projects, the Department could
Measure Contractors’   not objectively measure contractors’ performance and make sound
Performance            budgetary decisions based on objective measurements. The Department
                       allows contractors broad latitude to propose initiatives for research that is
                       of current interest to the scientific community. SC provides funds to the
                       laboratories so contractors can pursue initiatives for the advancement of
                       science. Accordingly, under the Department’s planning process, SC
                       relies on contractors to develop budget estimates, expend funds within
                       broad areas of research and provide the results of peer reviews1 used to
                       evaluate the quality of the research. The program managers use peer
                       reviews to determine the quality and progress of the contractors’
                       research.

                       In contrast to the Department, pharmaceutical companies evaluate their
                       researchers’ progress by establishing and applying milestones. The
                       companies evaluate progress in meeting the milestones, and if progress is
                       not satisfactory, the project may be cancelled. In addition, the success of
                       the program manager’s decisions is also evaluated based upon the
                       success of the projects. While peer reviews were also used to evaluate
                       the success of the work, milestones were considered essential because
                       they allow not only an assessment of the researchers’ success, but also
                       make the program managers accountable for their decisions.

                       The inclusion of milestones in SC work authorizations would improve
                       both internal and external stakeholders’ ability to evaluate the program as
                       well as the business management aspect of contractor research activity.
                       The inclusion of milestones could serve to align the research objectives
                       between the Department and its contractors. Also, contractor
                       performance, judged in relation to established expectations defined by the
                       Department, should be used to make decisions concerning future
                       budgetary allocations.


                       ______________________________
                       1
                         As a scientific custom, peer review is an organized method for evaluating work
                       that is used by scientists to certify the correctness of procedures and establish the
                       plausibility of results.




Page 6                                                                               Details of Finding
RECOMMENDATIONS   We recommend that the Director, Office of Science:

                  1. Require the inclusion of task-oriented milestones as well as annual
                     progress report milestones in field work proposals approved for
                     funding; and

                  2. Use milestones to evaluate the effectiveness and efficiency of research
                     program management in accordance with the contracts established by
                     the Department with its management and operating contractors.

                  Management did not concur with the finding and recommendations,
MANAGEMENT
                  stating that research progress should not be measured only against
REACTION
                  performance criteria and metrics at the individual task level. Management
                  stated that while various milestones and metrics can be specified, they are
                  only peripherally related to the activity being funded and do not provide
                  useful and reliable measures of the quality and programmatic value of the
                  subject research. Management stated that it uses peer reviews to ensure
                  research programs are of high quality and meet Departmental objectives.
                  Also, management stated that the peer review process is recognized as
                  the best practice in the field of R&D management and is used by other
                  Government agencies, such as the National Science Foundation and the
                  National Institutes of Health. Additionally, management stated that the
                  use of milestones in field proposals would constitute a discrepancy in how
                  budgetary allocations are determined between the two primary types of
                  research organizations—University grantees, for whom milestones are not
                  required, and Departmental laboratories.

                  Management questioned the validity of comparing the use of milestones
                  for pharmaceutical research to the basic research performed by the
                  Department. Management stated that pharmaceutical companies fund a
                  portfolio of research activities toward a specific end point, (e.g., develop
                  a class of effective oral cancer therapies with no harmful side effects) and
                  the pharmaceutical industry would manage those efforts through detailed
                  milestones. Conversely, organizations such as the Department and the
                  National Science Foundation support activities to advance knowledge or
                  to underpin next-generation technologies for which detailed milestones
                  would not be appropriate.




Page 7                                               Recommendations and Comments
                   In management’s view, the use of milestones and metrics would be a waste
                   of the taxpayers’ money and would be potentially destructive to the quality of
                   research. Finally, management stated there must be an accompanying
                   appreciation that milestones are not performance criteria, should not be so
                   construed, and that SC does, in fact, manage its programs actively and
                   effectively.

AUDITOR COMMENTS   We recognize that research progress should not be measured only against
                   performance criteria and metrics at the individual task level. Rather,
                   performance criteria and metrics should be used in conjunction with other
                   evaluation factors, such as peer reviews, annual reports, and researcher
                   presentations. While the eventual outcome of basic research may be difficult
                   to predict, milestones can and should be used to evaluate progress toward
                   the expected outcome of specific projects.

                   The use of milestones to determine budgetary allocations should not create a
                   discrepancy between the Department’s treatment of University grantees and
                   its laboratory contractors. Grants are used to provide financial assistance
                   where the Government does not expect to receive a direct benefit from
                   performance. Contracts, on the other hand, are used to acquire goods or
                   services for which the Government expects to receive a direct benefit.
                   Performance criteria and metrics are not required for grants; however, they
                   are normally required for contracts in order to evaluate the contractor’s
                   progress and to determine the amount of award fee earned.

                   We acknowledge that differences exist between the pharmaceutical industry
                   and the Department’s laboratories. However, as demonstrated by the
                   examples in this report, proposals for the Department’s individual research
                   projects often include milestones and metrics sufficient for use in evaluating
                   progress toward project completion. In this regard, the Department’s
                   projects are similar to those of the pharmaceutical industry.

                   We disagree with management’s statement that the use of milestones and
                   metrics would be a waste of taxpayers’ money and would be potentially
                   destructive to the quality of basic research. While the Department uses
                   subjective measures such as quality, leadership, and relevance to agency
                   goals in their peer review process, the process does not include objective
                   performance measures, such as whether the work was accomplished within
                   budget or on time. The absence of objective measures limits the
                   Department’s ability to make sound budgetary decisions and determine the
                   appropriate amount of fee earned.


Page 8                                                  Recommendations and Comments
Appendix

SCOPE         The audit was performed from June 29 to September 27, 1999, at the SC in
              Germantown, Maryland. The scope of the work included funded R&D
              projects at Argonne, Brookhaven, and Oak Ridge National Laboratories for
              FY 1999, in the scientific disciplines of High Energy Physics, Biological and
              Environmental Research, and Basic Energy Sciences. These disciplines
              accounted for 79 percent of SC’s budget of $1.7 billion for research and
              development projects in FY 1999.
METHODOLOGY
              To accomplish the audit objective, we:

              •   Reviewed OIG Report DOE/IG-376, Audit of Program
                  Administration by the Office of Energy Research;

              •   Reviewed Departmental orders and directives related to the work
                  authorization system;

              •   Reviewed management and operating contracts entered into by the
                  Department with Argonne, Brookhaven, and Oak Ridge National
                  Laboratories;

              •   Interviewed SC program managers for High Energy Physics, Biological
                  and Environmental Research, and Basic Energy Sciences in
                  Germantown;

              •   Reviewed work authorizations, program funding guidance, and field
                  work proposals funded by SC in FY 1999; and,

              •   Discussed the appropriateness of milestones for basic research projects
                  with representatives of private sector R&D companies.


              The audit was conducted in accordance with generally accepted Government
              auditing standards for performance audits, and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on computer-processed
              data; therefore, no assessment was made of data reliability.




Page 9                                                         Scope and Methodology
                                                                                   IG Report No. : DOE/IG-0457

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        Department of Energy Management and Administration Home Page
                                             http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
